TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Inadequate Controls Over Dishonored Checks
                 Put Millions of Dollars at Risk for Erroneous
                               Refund Issuance



                                      September 23, 2009

                              Reference Number: 2009-40-143




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 23, 2009


 MEMORANDUM FOR COMMISSIONER WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Inadequate Controls Over Dishonored Checks Put
                               Millions of Dollars at Risk for Erroneous Refund Issuance
                               (Audit # 200940020)

 This report presents the results of our review to determine the efficiency and effectiveness of the
 processing of dishonored checks. This review was conducted as part of the Treasury Inspector
 General for Tax Administration Fiscal Year 2009 Annual Audit Plan. This review addresses the
 Internal Revenue Service’s (IRS) major management challenge of Reducing Erroneous and
 Improper Payments.

 Impact on the Taxpayer
 In some instances a taxpayer’s payment cannot be processed by the bank. This includes
 payments for which there may not be sufficient funds to cover the taxpayer’s payment. The IRS
 refers to an unprocessed payment as a “dishonored check.” Our analysis determined the IRS
 generated1 refunds resulting from dishonored check overpayments totaling approximately
 $53 million to 15,192 taxpayers during the period January through July 17, 2008. We estimate
 the IRS was unable to stop more than $20 million in refunds from being erroneously issued to
 13,891 taxpayers (91 percent).



 1
  The IRS generates refund transactions in a taxpayer’s account. These transactions must then post to its Master File
 and a request for issuance of the refund is sent to the Financial Management Service. The Financial Management
 Service issues the refund to the taxpayer. The Master File is the IRS database that stores various types of taxpayer
 account information. This database includes individual, business, and employee plans and exempt organizations
 data.
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance




Synopsis
Although the number of payments that are dishonored represents an extremely small percentage
of the payments processed by the IRS (less than 1 percent), weaknesses in the IRS’ dishonored
check processing put millions of dollars at risk. Our analysis showed the IRS generated refunds
totaling approximately $53 million on 15,823 dishonored checks during the period January
through July 17, 2008. Our review of a statistically valid sample of 268 taxpayer accounts
                                      (294 refunds) identified that 130 (55 percent) of the
       The IRS received 245,007       236 dishonored checks that were subject to the 21-day
    dishonored payments totaling      standard2 were not worked within 21 days. In general, it
     approximately $1.55 billion in   took the IRS approximately 40 days from the date of the
        Processing Year 2008.         original payment to reverse the payment as dishonored.
                                       Further complicating the processing of dishonored checks
                                       was the issuance of the economic stimulus payments in
Processing Year 2008. According to the IRS, some taxpayers who were entitled to receive an
economic stimulus payment stopped payment on their checks in anticipation of the stimulus
payment satisfying their tax debt. In some of these instances, the economic stimulus payment
was refunded to the taxpayer before the IRS processed the dishonored check. As a result,
taxpayers received economic stimulus payments that should have been offset to their tax debt per
the Economic Stimulus Act of 2008.3
The same control deficiencies identified in our current review were cited in a previous review.4
Because the IRS did not implement previous
recommendations, millions of dollars in erroneous             Implementation of prior audit
refunds continue to be issued as a result of dishonored      recommendations would have
check overpayments. Further, Tax Examiners were                improved the IRS’ ability to
not always preparing and forwarding necessary                  identify and stop erroneous
                                                             refunds based on dishonored
documentation to the IRS’ Erroneous Refund Unit to                check overpayments.
initiate procedures to recover erroneously issued
refunds as required. Tax Examiners did not refer to
the Erroneous Refund Unit, as required, 193 (79 percent) of the 245 dishonored check refunds in
our sample that were erroneously issued to the taxpayer.
Establishing an effective process to identify and stop dishonored check overpayments from
refunding until the IRS is reasonably sure the related payment has cleared the bank would protect

2
  IRS employees generally are not required to resolve dishonored checks within 21 days when the notification from
the bank involves a missing check, an out-of-sequence encoding error, or a payment received on a full paid tax
return received during peak processing.
3
  Pub. L. 110-185, 122 Stat. 613.
4
  Review of Dishonored Check Processing (Reference Number 063001, dated March 29, 1996).
                                                                                                                    2
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance




more than $20 million a year, almost $102 million over the next 5 years, from erroneously being
issued to taxpayers. In addition, the IRS could redirect resources costing $119,308 per year
($596,540 over 5 years) currently used in the Erroneous Refund Unit to recover these refunds.
Finally, the IRS has the opportunity to enhance its systemic controls to prevent the erroneous
issuance of refunds resulting from a dishonored check as it modernizes its payment processing in
the Submission Processing sites. The IRS plans to convert all payments into an electronic
transaction to be posted to the taxpayers’ accounts. However, the IRS’ plans do not include
modernizing the deposit of paper checks with the banks nor the identification or processing of
dishonored checks.

Recommendations
The Commissioner, Wage and Investment Division, should establish a systemic process that
identifies and stops overpayments involving a dishonored check from erroneously refunding to
taxpayers, and identify erroneous refunds of dishonored checks issued to taxpayers that were not
referred to the Erroneous Refund Unit in Calendar Years 2008 and 2009 to ensure referrals are
made to initiate recovery of the refunds. In addition, in the long term, the IRS should modify the
payment processing modernization project to include converting paper checks to electronic fund
withdrawals.

Response
IRS management agreed with three of our recommendations and disagreed with one
recommendation. They shared one of the recommendations with their Accounting Operations
function reinforcing the need to ensure referrals are made to the Erroneous Refund Unit. In
addition to the corrective actions in response to our recommendations, the IRS will update the
Internal Revenue Manual to better clarify procedures for identifying and routing erroneous
refunds of dishonored checks to the Erroneous Refund Teams and increase managerial review
during peak processing times. Management did not agree with our recommendation to modify
its payment processing modernization project to convert paper checks to electronic fund
withdrawals. It stated that the current banking system prevented the conversion of paper checks
without enrolling in the Electronic Federal Tax Payment System. Management’s complete
response to the draft report is included in Appendix V.

Office of Audit Comment
We appreciate IRS management’s recognition of the benefits of converting paper checks to
electronic payments. We recognize the current limitations the IRS has regarding the
conversion of paper checks to electronic fund withdrawals. The IRS currently uses the EFTPS to

                                                                                                  3
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance




receive electronic payments from taxpayers. However, as we noted in our audit report, no
process has been established to convert paper checks to an electronic payment for transmission to
the bank. The EFTPS does not have the functionality to allow the IRS to convert paper checks to
an electronic format for transmitting the payments via the EFTPS. As the IRS moves forward
with its payment modernization, consideration should be given to develop such a process. We
also encourage the IRS to continue to promote its electronic payment options for taxpayers in an
effort to increase taxpayers’ usage and further reduce the risk of issuing refunds of overpayments
on dishonored checks.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Michael E.
McKenney, Assistant Inspector General for Audit (Returns Processing and Account Services) at
(202) 622-5916.




                                                                                                4
                        Inadequate Controls Over Dishonored Checks Put Millions of
                              Dollars at Risk for Erroneous Refund Issuance




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Overpayments Resulting From Dishonored
          Check Payments Are Being Erroneously Refunded .....................................Page 4
                    Recommendation 1:........................................................Page 7

                    Recommendations 2 and 3: ....................................................... Page 8

          Conversion of Paper Checks Into Electronic Transactions Could
          Prevent Issuance of Dishonored Check Erroneous Refunds.........................Page 9
                    Recommendation 4:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Management’s Response to the Draft Report .......................Page 18
        Inadequate Controls Over Dishonored Checks Put Millions of
              Dollars at Risk for Erroneous Refund Issuance




                      Abbreviations

EFTPS           Electronic Federal Tax Payment System
IRS             Internal Revenue Service
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance




                                             Background

The Internal Revenue Service (IRS) received payments totaling $2.7 trillion in Processing
Year 2008.1 Payments were received by paper check, electronic remittance, or cash. When
payments are received, the funds are deposited daily in Federal Reserve Banks or other
depository banks. In addition, IRS employees enter
information relating to the payment into the
taxpayer’s account on the Master File2 including the         The IRS received 245,007
                                                          dishonored payments totaling
amount of the payment, the tax return period the          approximately $1.55 billion in
payment is associated with, and the date the payment          Processing Year 2008.
was received.
However, in some instances, the payment cannot be
processed by the bank. This includes payments where there may not be sufficient funds to cover
the taxpayer’s payment. The IRS refers to an unprocessed payment as a “dishonored check.”
Figure 1 identifies the number and amount of dishonored checks processed by the IRS during
Processing Years 2007 and 2008.
    Figure 1: Number and Amount of Dishonored Checks Processed by the IRS

                                           Number of Dishonored                              Dollars
                                                 Checks
Processing Year 2007                                 261,192                             $1,588,256,202
Processing Year 2008                                 245,007                             $1,550,257,647
Source: IRS Dishonored Check Analysis Reports for 2007 and 2008.

At times, the amount of a taxpayer’s payment exceeds what was owed by the taxpayer, resulting
in an overpayment. Once notified by the bank that the payment was dishonored, IRS employees
are required to review the taxpayer’s account to determine if a refund has been generated3 in the
account. However, sometimes the overpayment is refunded to the taxpayer even though the
payment was dishonored. For example:


1
  The Processing Year is the year in which tax returns and other tax data are processed; in this case January 1 to
December 31, 2008.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  The IRS generates refund transactions in a taxpayer’s account. These transactions must then post to its Master File
and a request for issuance of the refund is sent to the Financial Management Service. The Financial Management
Service issues the refund to the taxpayer.
                                                                                                             Page 1
                 Inadequate Controls Over Dishonored Checks Put Millions of
                       Dollars at Risk for Erroneous Refund Issuance



       Taxpayer A sends the IRS a payment for $300. The taxpayer owes only $200, resulting in
       a $100 credit balance on the taxpayer’s account. The bank notifies the IRS that the
       payment was dishonored. However, the IRS does not timely review the taxpayer’s
       account to prevent the overpayment from refunding. The $100 credit is erroneously
       refunded to the taxpayer on a payment that was dishonored.
Figure 2 provides an overview of the IRS’ dishonored check process from bank notification
through resolution of the dishonored check and related refund.
                Figure 2: Flowchart of the Dishonored Check Process




                  Source: IRS Internal Revenue Manual.


                                                                                        Page 2
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance



A recent case shows the revenue loss that can result from the IRS not timely
working dishonored checks
An individual was prosecuted as the result of an investigation performed by the Treasury
Inspector General for Tax Administration, Office of Investigations. The Office of Investigations
determined the individual was inappropriately sending dishonored checks to fraudulently obtain
erroneous tax refunds. The individual sent 150 dishonored checks totaling more than
$3.3 million to the IRS and was able to successfully receive more than $107,000 in erroneous
refunds as a result of the IRS not timely stopping the issuance of the refunds. The checks were
written on closed or non-existent bank accounts. We initiated this review as a result of this case
to assess the controls that enabled this individual to fraudulently receive these refunds.
This review was performed at the Wage and Investment Division Headquarters in
Atlanta, Georgia, and the Submission Processing Sites in Fresno, California; Atlanta, Georgia;
Andover, Massachusetts; Kansas City, Missouri; Cincinnati, Ohio; Austin, Texas; and
Ogden, Utah, during the period October 2008 through May 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance




                                      Results of Review

Overpayments Resulting From Dishonored Check Payments Are
Being Erroneously Refunded
Although the number of payments that are dishonored represents an extremely small percentage
of the payments processed by the IRS (less than 1 percent), weaknesses in the IRS’ dishonored
check processing put millions of dollars at risk. Our analysis determined the IRS generated
refunds on dishonored checks totaling approximately $53 million to 15,192 taxpayers during the
period January through July 17, 2008.4 We estimate the IRS was unable to stop more than
$20 million in refunds from being erroneously issued to 13,891 taxpayers (91 percent). Figure 3
shows the number of taxpayers and the amounts that resulted in an overpayment and refund
issuance.
               Figure 3: Refunds of Overpayments on Dishonored Checks
                               (January – July 17, 2008)

                                                   Number of
                                                   Taxpayers                         Dollars
Dishonored Checks Resulting in
Refund Generation                                             15,192                      $52,778,617

Refunds Stopped by the IRS5                                     1,301                     $32,408,364
Refunds Erroneously Issued5                                   13,891                      $20,370,253
Source: Analysis of the IRS Master File for the period January to July 17, 2008, and the projection of our
statistically valid sample.




4
  Includes dishonored electronic payments.
5
  Projected from the results of our review of a statistical sample of 268 of the 15,192 taxpayers with dishonored
checks resulting in refunds processed between January and July 17, 2008. We used a conservative approach in
determining the number of taxpayers with refunds stopped by the IRS and the associated dollar amount. We
subtracted our projection of refunds erroneously issued and dollars from the 15,192 taxpayers with dishonored check
refunds and $52,778,617.
                                                                                                             Page 4
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance



Delays in working dishonored checks resulted in erroneous refunds
Tax Examiners are not timely working dishonored check cases. To prevent erroneous refund
issuance, IRS guidelines require dishonored checks to be worked within 21 days of bank
notification. Our review of a statistically valid sample of 268 taxpayers’ accounts with at least
1 dishonored check refund6 identified that 130 (55 percent) of the 236 dishonored checks in those
accounts that were subject to the 21-day standard7 were not worked within 21 days. The IRS
took 1 day to 38 days beyond the standard to work the 130 dishonored checks. It took the IRS an
average of 26 days to work the 236 dishonored checks ranging from 2 days to 59 days.
In addition, 245 (83 percent) of the 294 refunds generated in our sample were not stopped and
were erroneously issued to the taxpayer. We estimate the IRS was unable to stop more than
$20 million of the almost $53 million in refunds generated from being erroneously issued to
13,891 taxpayers (91 percent). We also identified that Tax Examiners:
•   Did not begin working on 162 (60 percent) of the 269 dishonored checks until after the
    refund was erroneously generated.
•   Did not reverse the dishonored payment for 137 (51 percent) of the 269 dishonored checks
    on the same day that the Tax Examiner began researching the account despite IRS guidelines
    requiring examiners to take this action. Our review identified that it took anywhere from 1 to
    47 days to reverse the payment once the Tax Examiner began to research the taxpayer’s
    account.
In general, it took the IRS approximately 40 days from the date of the original payment to
reverse the payment as dishonored. However, refunds on the dishonored payments were
erroneously issued to taxpayers an average of 36 days after the payment posted. Further
complicating the processing of dishonored checks was issuance of the economic stimulus
payments in Processing Year 2008. According to the IRS, some taxpayers who were entitled to
receive an economic stimulus payment stopped payment on their checks in anticipation of the
stimulus payment satisfying their tax debt. In some of these instances, the economic stimulus
payment was refunded to the taxpayer before the IRS processed the dishonored check. As a
result, taxpayers received economic stimulus payments that should have been offset to their tax
debt per the Economic Stimulus Act of 2008.8




6
  The 268 taxpayer accounts we reviewed involved 269 dishonored checks and 294 dishonored check refunds.
7
  IRS employees generally are not required to resolve dishonored checks within 21 days when the notification from
the bank involves a missing check, an out-of-sequence encoding error, or a payment received on a full paid tax
return received during peak processing.
8
  Pub. L. 110-185, 122 Stat. 613.
                                                                                                          Page 5
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance



Implementation of prior audit recommendations could have improved the ability
to identify and stop dishonored check refunds
The same control deficiencies identified in our current review were cited in a previous review.
Because the IRS did not implement previous recommendations, millions of dollars in erroneous
refunds continue to be issued as a result of dishonored check overpayments. Specifically, a 1996
IRS Inspection Service audit9 found control weaknesses allowed taxpayers who had an
overpayment based on a dishonored check to erroneously receive refunds. The IRS generated
10,630 refunds of overpayments based on dishonored checks totaling more than $18 million.
However, the IRS was able to stop only 2,447 (23 percent) of the 10,630 refunds before they
were issued to the taxpayers. The remaining 8,183 refunds totaling approximately $10.5 million
were erroneously issued to the taxpayers. Control weaknesses resulted from:
•    Tax Examiners either not receiving dishonored checks from the Financial Management
     Service or depository banks in sufficient time to stop the refund from being issued and/or
     Tax Examiners not beginning to work the cases timely.
•    Management not always ensuring erroneous refunds caused by dishonored checks were
     properly identified and/or stopped.
Recommendations not addressed included:
•    Evaluating current procedures used to route dishonored checks between the Processing
     Centers and the banks. The IRS determined the current Memorandum of Understanding
     adequately addressed the timing of the receipt of dishonored checks from the banks and
     closed the recommendation with no action.
•    Matching dishonored check transaction codes on the Integrated Data Retrieval System10 to
     refund data. The IRS noted that this was not cost effective as the number of erroneous
     refunds issued on dishonored checks was only 0.0095 percent of all refunds issued in
     Processing Year 1994.
•    Holding or “recirculating” the refund stop requests sent to the Financial Management
     Service. The IRS canceled this corrective action. We were unable to determine the reason
     for the cancellation.
The IRS needs to establish an effective process to identify and stop dishonored check
overpayments from erroneously refunding. The manual process reviewed during the Inspection
Service’s 1996 audit continues to allow millions of dollars in erroneous refunds to be issued . As
a result, the approximately $53 million in dishonored check refunds generated by the IRS
between January and July 2008 were at risk of being issued to taxpayers in error. A systemic

9
  Review of Dishonored Check Processing (Reference Number 063001, dated March 29, 1996).
10
   IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                              Page 6
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance



process needs to be developed to prevent a dishonored check overpayment from ever being
erroneously issued to a taxpayer. In our opinion, the IRS should implement computer controls to
prevent refunds of overpayments from posting to a taxpayer’s account until it is reasonably
assured the related payment has cleared the bank. For example:
       A taxpayer with a balance due of $200 made a $300 payment. The IRS could initiate a
       computer freeze to prevent the $100 overpayment from posting to the taxpayer’s account
       until enough time has passed for the bank to notify them if the payment was dishonored.
       Based on our analysis, freezing the refund for 21 days should provide reasonable time for
       the IRS to determine if the payment has been dishonored before the refund is issued.
We estimate an effective process to systemically prevent refunds from generating until the IRS is
reasonably sure the related payment has cleared the bank would protect more than $20 million
dollars a year, almost $102 million over the next 5 years, from being issued to taxpayers in error.
In addition, we estimate systemically stopping refunds on dishonored checks could allow the IRS
to redirect resources totaling $119,308 per year ($596,540 over 5 years) currently used in the
Erroneous Refund Unit to recover these erroneous refunds.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Establish a systemic process to identify overpayments of dishonored
checks and stop the overpayments from erroneously refunding to taxpayers until the IRS is
reasonably sure the related payment has cleared the bank.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will initiate a Unified Work Request to generate a weekly listing from the Integrated
       Data Retrieval System. The IRS will determine the best approach to systemically
       identify overpayments due to dishonored checks and stop the overpayments from
       erroneously refunding to taxpayers. This is contingent on funding.

Referrals to the Erroneous Refund Unit are not being consistently initiated in an
attempt to recover erroneous refunds
Tax Examiners were not always preparing and forwarding required documentation to the IRS’
Erroneous Refund Unit to initiate procedures to recover erroneously issued refunds.
Specifically, Tax Examiners did not refer as required 193 (almost 79 percent) of the 245 refunds
from our sample that were erroneously issued to taxpayers. IRS guidelines require Tax
Examiners to prepare an Inquiry Referral (Form 4442), Adjustment Request (Form 3465), or a
case history sheet to refer accounts to the Erroneous Refund Unit when a refund was erroneously
issued based on a dishonored payment.



                                                                                            Page 7
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance



Once a refund resulting from a dishonored payment has been issued to a taxpayer, the IRS can
only recover the refund by:
•    Offsetting a future refund.
•    Initiating an erroneous refund lawsuit.
•    Asking the taxpayer to voluntarily repay the refund.
We determined the IRS recovered 47 (90 percent) of the 52 refunds in our sample that were
referred to the Erroneous Refund Unit. Failure to forward documentation to initiate the recovery
of erroneously issued refunds to the Erroneous Refund Unit increases the risk that an erroneous
dishonored check refund will not be recovered from the taxpayer.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Identify overpayments involving dishonored checks that resulted in
erroneous refunds issued during Calendar Years 2008 and 2009 that were not referred to the
Erroneous Refund Unit and initiate recovery of the refunds.
        Management’s Response: IRS management agreed with this recommendation. The
        IRS will initiate two separate Unified Work Requests for Calendar Years 2008 and 2009
        to generate a one-time list. The lists will be reviewed by the Dishonored Check function
        at each Campus11 location before referral to the Erroneous Refund Unit which will initiate
        recovery of the refunds.
Recommendation 3: If a systemic process is not developed in response to
Recommendation 1, develop a process to ensure dishonored checks are worked timely and
required referrals are made to the Erroneous Refund Unit when a dishonored payment results in
an erroneous refund issuance. This would include ensuring dishonored check payments are
reversed on the same day the Tax Examiner begins researching the dishonored check.
        Management’s Response: IRS management is planning to implement a systemic
        process as noted in their response to Recommendation 1; however, in the interim it has
        shared this report with its Accounting Operations function and reinforced the need to
        ensure these referrals are made. Hot Topic W&I-IA-2009-1113 was issued as follows:
             •   It is imperative that additional Integrated Data Retrieval System research be
                 performed in every dishonored check case to identify and intercept any



11
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 8
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance



               Transaction Code 840 or Transaction Code 846 that are pending or posted to the
               Master File that may be issued in error.
           •   Management must ensure that Tax Examiners are trained to identify and intercept
               posting refunds.
           •   Tax Examiners must prepare and forward required documentation to the
               Erroneous Refund Unit to initiate procedures to recover erroneously issued
               refunds.

Conversion of Paper Checks Into Electronic Transactions Could
Prevent Issuance of Dishonored Check Erroneous Refunds
The IRS has the opportunity to enhance its systemic controls to prevent the erroneous issuance of
refunds resulting from a dishonored check overpayment as it modernizes its payment processing
in the Submission Processing sites. Specifically, the IRS plans to convert all payments into an
electronic transaction to then be posted to the taxpayers’ accounts. However, the IRS’
modernization project will not change the processes it uses to deposit paper checks or identify
and work dishonored checks returned by the Federal Reserve or depository banks. As a result,
the risk that the IRS will issue erroneous refunds on dishonored checks will still exist.
The IRS should include in its payment modernization a process to convert the deposit of paper
checks into electronic fund withdrawals to prevent the issuance of erroneous refunds based on
the receipt of a dishonored check. The IRS currently uses the Department of the Treasury’s
Electronic Federal Tax Payment System (EFTPS) to process electronic fund withdrawals
initiated by taxpayers. This system sends the payment authorization to the bank before it posts to
the taxpayer’s account. The bank verifies the payment can be made (funds are available). If the
payment is dishonored, the bank notifies the IRS that a payment was made and dishonored at the
same time. The EFTPS systemically posts the payment to the taxpayer’s account to show a
payment was attempted and posts the dishonored check transaction to show the payment was not
honored. Of the 15,823 dishonored checks with refunds during the period January through
July 17, 2008, 96 percent (15,139 checks) were processed as paper checks.
Systemically processing the payment and dishonored check as an electronic fund withdrawal will
dramatically reduce the risk that an erroneous refund of an overpayment on a dishonored check
will be issued to the taxpayer. For example:
       The IRS receives a check from taxpayer A for $200. It converts the check to an electronic
       fund withdrawal and forwards the payment authorization to the bank. The bank
       processes the authorization and determines it cannot be honored. Using the EFTPS, the
       bank provides the IRS with two records for taxpayer A – a payment record showing the
       taxpayer authorized a payment to the IRS and a dishonored check record. The IRS
       processes both records and posts them to taxpayer A’s account in the same processing

                                                                                            Page 9
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance



       cycle. The payment transaction indicates the taxpayer made a payment. The dishonored
       check transaction reverses the payment in the taxpayer’s account. Because the payment
       and the dishonored check transaction post to the taxpayer’s account at the same time, the
       risk that a refund of the payment will occur is minimal.
Systemic processing of the payment and the dishonored check will also reduce the resources
needed to work dishonored checks. Currently, a Tax Examiner must research the taxpayer’s
account, initiate the dishonored check transaction to reverse the payment, and identify and stop
the refund. However, if the dishonored check transaction was processed systemically, Tax
Examiners would no longer have to perform these tasks.

Recommendation
Because the IRS has plans to modernize its payment processing, we are making the following
recommendation as a long-term solution to improve the IRS’ ability to prevent refunds on
dishonored checks.
Recommendation 4: The Commissioner, Wage and Investment Division, should modify the
IRS’ payment processing modernization project to include converting paper checks to electronic
fund withdrawals instead of continuing to process them as a paper deposit to the bank. This will
allow the IRS to eliminate the manual processing of dishonored checks and dramatically reduce
the risk that refunds of overpayments on dishonored checks will be erroneously issued to
taxpayers.
       Management’s Response: IRS management disagreed with this recommendation.
       While electronic fund withdrawals would be the preferred way to deposit payments, the
       current banking system prevents converting paper checks to electronic fund withdrawals
       without enrolling in the EFTPS. The IRS’ current modernization efforts, the Campus
       Bulk Remittance Processing project and the Remittance Processing – Paper Check
       Conversion program, are in the planning stages. With these projects, the deposit is
       transmitted electronically from the IRS to the bank. The deposit is electronic but the
       method for transferring funds will not change. Due to the electronic nature of deposit
       transmittal, it will reduce the risk that refunds of overpayments on dishonored checks will
       be erroneously issued to taxpayers.
       Office of Audit Comment: We appreciate IRS management’s recognition of the
       benefits of converting paper checks to electronic payments. We recognize the current
       limitations the IRS has regarding the conversion of paper checks to electronic fund
       withdrawals. The IRS currently uses the EFTPS to receive electronic payments from
       taxpayers. However, as we noted in our audit report, no process has been established to
       convert paper checks to an electronic payment for transmission to the bank. The EFTPS
       does not have the functionality to allow the IRS to convert paper checks to an electronic
       format for transmitting the payments via the EFTPS. As the IRS moves forward with its

                                                                                          Page 10
          Inadequate Controls Over Dishonored Checks Put Millions of
                Dollars at Risk for Erroneous Refund Issuance



payment modernization, consideration should be given to develop such a process. We
also encourage the IRS to continue to promote its electronic payment options for
taxpayers in an effort to increase taxpayers’ usage and further reduce the risk of issuing
refunds of overpayments on dishonored checks.




                                                                                    Page 11
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the efficiency and effectiveness of the processing of
dishonored checks. To review the efficiency and effectiveness of the processing of dishonored
checks, we obtained Master File1 data from the Treasury Inspector General for Tax
Administration Data Center Warehouse.2 We extracted 340,727 dishonored payments processed
during the period January 1, 2008, through July 17, 2008.3 We further determined 15,823 of the
340,727 had a refund generated on the dishonored check. We used the Integrated Data Retrieval
System4 to validate the Master File data we extracted. We also obtained source documents for
our sampled selection of dishonored check cases.
To accomplish our objective, we:
I.      Determined whether corrective actions were taken on recommendations made in the prior
        Inspection Service report.5
II.     Determined the cost of resolving a dishonored check and recovering the related
        erroneously issued refund in Fiscal Year 2007. Using this information, we estimated the
        total cost of working dishonored checks, including the cost to recover refunds
        erroneously issued to taxpayers.
III.    Assessed the effectiveness of controls to ensure dishonored checks are processed timely.
        A. Reviewed the Internal Revenue Manual and conducted a walkthrough of the
           dishonored check process in the Kansas City, Missouri, Processing Center to identify
           internal controls designed to ensure dishonored checks are worked timely.
        B. Analyzed a statistical sample of 268 of the 15,192 taxpayer accounts that had a
           dishonored check and a refund transaction posting during the period January 1
           through July 17, 2008, to determine whether current processes and procedures
           effectively ensure dishonored checks are worked timely to prevent erroneous refunds.
           Our sample was a stratified sample consisting of 234 individual and 34 business


1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  Data Center Warehouse provides data and data access services through the Treasury Inspector General for Tax
Administration intranet.
3
  Includes checks received from individual and business taxpayers as well as EFTPS payments.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
5
  Review of Dishonored Check Processing (Reference Number 063001, dated March 29, 1996).
                                                                                                           Page 12
                Inadequate Controls Over Dishonored Checks Put Millions of
                      Dollars at Risk for Erroneous Refund Issuance



         taxpayer accounts with dishonored checks with a refund. The sample size was based
         on an expected error rate of 77 percent, a 95 percent confidence level, and a
         ± 5 percent precision and was selected using a random number generator.
      C. Contacted the Wage and Investment Headquarters and the Federal Tax Deposit –
         EFTPS Unit in the Ogden Processing Center to determine how the IRS is notified of a
         dishonored EFTPS payment and how the payments are resolved.
IV.   Determined the impact of not timely working dishonored payments by projecting the
      results of our sample review in Step III.B. to the total population of dishonored checks
      with a refund transaction posting for Processing Year 2008.
V.    Determined whether the IRS can improve its ability to prevent refunds on dishonored
      checks from being issued to taxpayers through the use of improved technology.




                                                                                         Page 13
                 Inadequate Controls Over Dishonored Checks Put Millions of
                       Dollars at Risk for Erroneous Refund Issuance



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit, (Returns Processing and Account
Services)
Russell P. Martin, Director
Deann L. Baiza, Audit Manager
Linda L. Bryant, Lead Auditor
Sharon A. Buford, Senior Auditor
Karen C. Fulte, Senior Auditor
Kathleen A. Hughes, Senior Auditor
Sharla J. Robinson, Senior Auditor
Van A. Warmke, Senior Auditor
Chanda L. Stratton, Auditor




                                                                                    Page 14
                Inadequate Controls Over Dishonored Checks Put Millions of
                      Dollars at Risk for Erroneous Refund Issuance



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Wage and Investment Division SE:W:C
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Senior Operations Advisor, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement SE:W:S:PRA:PEI




                                                                               Page 15
                     Inadequate Controls Over Dishonored Checks Put Millions of
                           Dollars at Risk for Erroneous Refund Issuance



                                                                                               Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
• Inefficient Use of Resources – Potential; $596,540 in resources the IRS can redirect to other
  programs over the next 5 years as a result of not having to refer erroneous refunds on
  overpayments of dishonored checks to the Erroneous Refund Unit (see page 4).

Methodology Used to Measure the Reported Benefit:
Implementing a systemic process to identify and stop overpayments on dishonored checks from
refunding to taxpayers would eliminate the need for the IRS to work erroneous dishonored check
refunds in its Erroneous Refund Unit.
According to the IRS, it processed 2,601 erroneous refunds resulting from a dishonored check in
Processing Year 2008 at a cost of $45.87 per refund. Using this data, we estimated it cost the
IRS $119,308 to process erroneous dishonored check refunds in 2008. The projected value of
resources that can be redirected to other IRS programs over 5 years as a result of preventing
overpayments from refunding to taxpayers is $596,540 ($119,308 x 5).

Type and Value of Outcome Measure:
•   Revenue Protection - Potential; $101,851,265 in potentially erroneous refunds on dishonored
    checks over the next 5 years (see page 4).

Methodology Used to Measure the Reported Benefit:
Control weaknesses in the IRS’ dishonored check process and the timing of Master File1
processing increase the risk that a refund will be issued on a dishonored check. We analyzed the
IRS’ Master File for the period January 1, 2008, through July 17, 2008, and identified
15,192 taxpayer accounts with dishonored check refunds totaling $52,778,617.




1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 16
                  Inadequate Controls Over Dishonored Checks Put Millions of
                        Dollars at Risk for Erroneous Refund Issuance



Our review of a statistical sample of 268 of the 15,192 taxpayer accounts determined the IRS did
not stop the dishonored check refunds in 91 percent of the taxpayer accounts. We then projected
the results of our sample to the 15,192 taxpayer accounts using a 95 percent confidence level and
a ± 5 percent precision. We estimate the IRS will issue $20,370,253 in erroneous refunds of
dishonored checks to 13,891 taxpayers annually. We are 95 percent confident the actual amount
of refunds issued in error is between $10,955,922 and $29,784,584. We estimate the IRS could
issue $101,851,265 in erroneous dishonored check refunds over the next 5 years
($20,370,253 x 5).




                                                                                         Page 17
    Inadequate Controls Over Dishonored Checks Put Millions of
          Dollars at Risk for Erroneous Refund Issuance



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 18
Inadequate Controls Over Dishonored Checks Put Millions of
      Dollars at Risk for Erroneous Refund Issuance




                                                      Page 19
Inadequate Controls Over Dishonored Checks Put Millions of
      Dollars at Risk for Erroneous Refund Issuance




                                                      Page 20
Inadequate Controls Over Dishonored Checks Put Millions of
      Dollars at Risk for Erroneous Refund Issuance




                                                      Page 21
Inadequate Controls Over Dishonored Checks Put Millions of
      Dollars at Risk for Erroneous Refund Issuance




                                                      Page 22
